9a

■

g-Pira?

w>0--

O f{-r-i -a rr
/

/

W'

\sj!

(' ;

No.
Supreme ourt, u:
FILED

APR 2 7 202?
-OFFICE OF THE 01 F,^

IN THE
SUPREME COURT OF THE UNITED STATES

:

JEREMIAH YBARRA/PRO SE

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF HABEAS CORPUS
PURSUANT TO 28 U.S.C. §2241
UNITED STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

Jeremiah Ybarra

(Your Name)
FMC ROCHESTER/PMB 4000

(Address)
Rochester, Minnesota, 55903-4000
(City, State, Zip Code)

(Phone Number)

received
MAY 1 1 2021
SUPREME^CoImT1-^^

L

QUESTION(S) PRESENTED
IS AN AMERICAN CITIZEN'S.FIFTH-AMENDMENT VIOLATED WHEN HIS CASE
IS NOT PRESENTED TO A GRAND JURY TO GAIN AN INDICTMENT ON THE
ALLEGED OFFENSE?
DOES A UNITED STATES DISTRICT COURT HAVE JURISDICTION WHEN THE
CASE WAS NEVER PRESENTED TO A GRAND JURY?
WHAT IS THE RELIEF THAT AN AMERICAN CITIZEN IS ENTITLED TO WHEN
THERE IS POSSIBLE PROSECUTORIAL MISCONDUCT AND A GRAND JURY ISSUE?
/

DCIS AN AMERICAN' CITIZEN ABLE TO CHALLENGE AN INDICTMENT AFTER
BEING CONVICTED OF AN ALLEGED OFFENSE

AND CAN SHOW THAT HE OR

SHE REQUESTED APPOINTED COUNSEL TO QUESTION THE LEGALITY OF THE
INDICTMENT?
WOULD AN AMERICAN CITIZEN UNDER THE SAME CIRCUMSTANCES, IF HE
WERE SENTENCED TODAY, FACE A §851 ENHANCEMENT OR QUALIFY AS A CAREER
OFFENDER?
---------WAS PETITIONER GIVEN A FAIR TRIAL?

\

LIST OF PARTIES

[x ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

ii

TABLE OF CONTENTS

1

OPINIONS BELOW.......
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4-6

REASONS FOR GRANTING THE WRIT

.7-1?

CONCLUSION

■i r

INDEX TO APPENDICES

APPENDIX A

INDICTMENT BEING QUESTIONED

APPENDIX B

AFFIDAVIT FROM PROSECUTOR MONTY KIMBALL MHO
TRIED THE CASE

APPENDIX C

AFFIDAVIT BY TRIAL COUNSEL

APPENDIX D

AFFIDAVIT BY APPELLANT COUNSEL

APPENDIX E

FORENSIC EVIDENCE OF ANALYIST

APPENDIX F

MESSAGES FROM THE OTHER PERSON INVOLVED.

iii

i

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

McDonald v. Citv of Chicago.
5FI~ (T. S. 7'4X‘''7%B'"fr:r3TlLT(5s . Ct. 3020, 177 L.Ed 2d 894(2010) .. .7
Trois v. Lona,
362_F.App"x "399, 401(5th Cir.2010).
United States v. Arlen,
947 F. 2d" 139 ,“T44('5th "cir. 1991) . . . .

7
7

United States v.McMillan,
^T50 F. 3d 434, 451 (3th Cir .2010) .’. . .
Renigar v. United States,
T72 F. ~646(4t'h Cir.1909)...

8
8

Bauman v.United States,
156 F.2d 534(5th cir.19^6). #««•«<
United States v. Sanders,
668 F.3d 1298, 1309Tlith Cir. 2012).......... '.

9

United States v. Seher,
"562 F.3d 1344, 1363(llth Cir.2009)..............

9

a

a

a«a •

a

STATUTES AND RULES
8.

28!u.s.-CiS.§556[predecessor to Rule 52(a)
•. Fed.R.Crim.P. 7(c)(1)....

• a^aaaecaoaa

? o • • a a

21 U.S.C.S.§841....
...
21 U.S.C.S.§841(b)(1)(A) and §841(b)(1)(B)........................
—Rij-l-e~T2'(_bi_(*2')~.'VTTTv.“r7*;
............ ~ • •“.......... ..

. . ..10

10
12
T-. rl 3----

CASES (CONTINUED)
Zafiro v. United States,
506 U.S. 534, 539, 113 S.Ct. 933, 122 L.Ed. 2d 317(1993)

Henderson v. Russell,
Supra,

11
12-13

State v. Hughes,
il2 Tenn. 644, 371 S.W. 2d 445(1963)
Robinson v. City of Memphis,
197 Tenn. 598, 277 S.W. 2d 341(1955)

a

13
13

OTHER CASES CONTINUED
Bordenkircher v. Hayes,
434 U.S. 357, 364, 98 S.Ct. 663, 54 L.Ed. 2d 604(1978)

13

United states v.Goodwin,
457 U.S. 368, 372, 102.S.Ct. 2485, 73 L.Ed. 2d 74(1982)

13

iiii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For eases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition- and is

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ________:____ _ ___:__
[ x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
ordeFdenying rehearing appears at "Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
___(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
and under 28 U.S.C. §1651(a) and§2241

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3L

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

THE FIFTH AMENDMENT GUARANTEES THAT MO PERSON SHALL BE HELD TO
ANSWER FOR A CAPITOL OR OTHERWISE INFAMOUS CRIME, UNLESS ON AN
A PRESENTMENT-i-ORUINBICTME-NT” OFIA”GRAND JURY'
A MOTION TO DISMISS IS GOVERNED

BY 28 U.S.C.§1867(e)

18 U.S.C.S. §3321 THAT NO ONE CAN BE PROSECUTED BEFORE RETURNING
AN INDICTMENT- A PROPOSED INDICTMENT IS DRAFTED BY THE PROSECUTOR
AND SUBMITTED TO THE GRAND JURY WITH AFTER CONSIDERATION OF THE
EVIDENCE, ADPOTS IT AS IT"S OWN
21 U.S.C.S.§841
DRUG TYPE AND QUANTITY ARE ELEMENTS OF THE OFFENSE UNDER THE
I21 U.S.C.S.§841 STATUTE THAT MUST BE CHARGED IN THE INDICTMENT
THE SIXTH AMENDMENT GIVES A DEFENDANT CHARGED FOR AN ALLEGED
OFFENSE, A RIGHT TO EFFECTIVE ASSISTANCE OF COUNSEL
THE FIFTH AMENDMENT GIVES A RIGHT TO COMPULSARY PROCESS AND
DUE PROCESS

3

STATEMENT OF THE CASE
On November 15, 2016, petitioner was arrested under a criminal
criminal complaint,' which stated that oncJulyr-29,2016, an under-:v
cover agent succesfully purchased 45.2 grams of methamphetamine
from petitioner. When petitioner started to question the accusation,
appointed counsel stated there was no lab test done and that he was
submitting a not guilty plea. Then on December 13,2016, a grand
jury indicted petitioner. When counsel took the indictment to petit­
ioner in the county jail, petitioner questioriedc; the indictment due
• to the way it was drawn up. It stated that on or about July,29, 2016
in the Western District of Texas, petitioner and others,.aiding and
abetting one another, knowingly and intentionally possessed with

1 i':

intent to distribute 5 grams or more but less than 50 grams of me­
thamphetamine, its salts, isomers, and salts of its isomers, a controlled substance. Petitioner asked his then counsel (Louis Correa)
about what was said at the Grand Jury. He stated that the Grand Jury
found that I should be charged. I then asked him_abqut _the—Riding—
and abetting and where the other people that were involved were at.
He stated that they are charging me with selling the undercover methamphetamine. Petitioner then requested the lab results and the cha­
in of custody and counsel said that they did not have it. Petitioner
then asked how they (the Grand Jury)charged an offense without first
recieving the lab results to know exactly what the supposed substance was? Counsler said that they could do whatever they want. Petitioner fired his appointed counsel and was then appointed Mary Ellen
Smith. At first Mrs.Smith was finding out that the agents involved
were editting-recordings and also dry firing there weapons, Petitioner asked for the other people named in the one police report to
4

be there to testify on petitioners behalf. Counsel failed to do the
only thing that would have shown the lies of the agents. Petitioner
requested counsel to have an independent test done on the supposed
substance that was involved, she failed to that as well. At trial/
counsel stated that it would be best to testify and defend that you
did not sell anything. Then on appeal that was what made petitioner
look bad in the eyes of the judges. The recording;;-? that was used was
never examined by an expert to see if that to was edited. The only
reason that the other recordings were not used was because it_would
have shown petitioner was not guilty of possession and would have
also shown that petitioner was not wanting to help these people.
Subsequently/ since the trial was not fair and some of the evidence
was a total suprise/ petitioner was found guilty of possession. On
appeal/ the appeals court affirmed that petitioner was guilty of
aiding and abetting-possession with intent to distribute. .At trial/
when there was no proof of petitioner having actual possession, the
government changed its theory and stated the aiding and abetting.
The jury instructions were deficient :.due to the fact that at first
the jury was instructed to the elements that the government had to
prove at trial. Then at the end they were instructed differently to
the charge. The argument was.;constructive possession when that was
not ever proven. Petitioner never knew exactly what was being sold
to the undercover. The petitioner only introduced a person that was
supposedly going to help gain whatever the undercover wanted. Petit­
ioner has the evidence where the agents involved begged petitioner
for four months prior to help find someone that would help gain the
substances they wanted. Petitioner was not able to show this due to
the fact that petitioner was never allowed to leave detention. Peti-

5

tioner has this evidence on a sim card in a safe place for when
he is released from prison to prove his innocence. On this sim
card, petitioner has the test messages from the undercover agent
telling petitioner that he just needed help from someone to get
drugs. Petitioner tells this person that he is not into that and
to leave it alone. Throughout a period of four months, the agent
continued to harass petitioner into introducing him to someone
that would be willingqto help him. Petitioner also has the evid­
ence where the person that went to sell the supposed controlled
substance / f states that it was not a controlled substance at all
but was rocksalt. These other people that were actually the pers­
ons that went to sell the "controlled substance" were never there
to testify about what happenedcon July 29, 2016. Petitioner has
been fighting for his freedom since the beginning of this whole
ordeal. Petitioner has not waived any of his rights that are pro­
tected under the CONSTITUTION. There is a Grave Miscarriage of
Justice in this case and it seems that no one wants to listen.to
or even examine the evidence. Petitioner comes before this court
to request relief once again and hopes that Lady Justice take
her blindfold off and actually see what is going on in this case.

6

REASONS FOR GRANTING THE PETITION
Petitioner feels that this case would help further injustice in
other cases involved with this District for the Western part of
Texas, i;f the prosecution is allowed to circumvent the Grand Jury,
then any citizen will be held to answer to an allegation without
any investigations done before having to plead guilty to something
he may have not done in fear of being convicted wrongfully. More and
more citizens are being affraid to go to trial and exercise their
rights to a fair process due to the government being allowed to do
anything and everything to gain convictions. If a case is not prese­
nted to a Grand Jury then the power to gain an indictment is in the
hands of the government-and its prosecutors. Petitioner has an affi­
davit with the prosecutor stating that he never presented the case
to the Grand Jury. Petitioner has a Fifth Amendment Right to a Grand
Jury. See McDonald v. City of Chicago, 561 U.S. 742, 765 n.13, 130
S.Ct. 3020, 177 L.Ed 2d 894(2010). If the case was never presented
_to—t he—Grand - Jury- -th-en—probable-;—cause—w-as no t—e s t ab-l-i shed-.-—" A Gr and—
Jury establishes probable cause." Trois v. Long, 362 F.App'x 399_, J101
(5th Cir. 2010). "The Fifth Amendment guarantees that a criminal de­
fendant will be tried only on charges alleged in a grand jury indic­
tment." United States v. Arlen, 947 F.2d 139, 144(5th Cir. 1991).
In the beginning, petitioner was supposed to defend to the allegati­
on of possession with intent to distribute. At trial, he had to def­
end to aiding and abetting possession with intent to distribute. "A
constructive amendment occurs when it permits the defendant to be
convicted upon a factual basis that effectively modifies an essenti­
al element of the offense charged or permitstethb government to convi­
ct the defendant on a materially different theory or set of facts
7

>

1

than that with which [he orjshe was charged." United States v.
McMillan? 600 F.3d 434? 451(5th Cir* 2010)(quotation, omitted)."A
constructive amendment violates the defendant's right under the
Fifth Amendment to a grand jury indictment."ild.(quotation omitted).
Deprivation of a right not^to;be.tried satisfies the third condition
of the collateral order doctrine and the Grand Jury Clause does ind­
eed confer a right not to be tried when there is no grand jury indi­
ctment. If the prosecutor did not present this case to the grand jueyy then it is a defect so fundamental that it causes the grand jury
KOotoager:to. be a grand jury,.or the indictment no longer to be an
indictment and gives rise to the CONSTITUTIONAL right not to be tried.
Grand Jury presentment not made in established mode of procedure is
mere question of irregularity as referred to in former 28 U.S.C.S.
§556[predecessor to Rule 52(a)]; paper, purporting to be indictment
which is handed by foreman-to clerk when court is not in session and
in absence of grand jury is no indictment, as grand jury presentmen­
ts must be made publicly and in open court, all of grand jurors bea*
ing present and answering to their names. Renigar v.United States,
172 F. 646(4thCir. 1909)).The finding by a grand jury of a true bill
and indorsement thereon to such effect are not alone sufficient to
render it valid as an indictment, but it is found necessary that the
bill should be presented or returned by the grand jury in open court.
Iff there is no indictment returned by a grand jury, then there was
no jurisdiction that the district court could exercise. If a federal
court is without jurisdiction of offense, judgement of conviction
is void on its face. Bauman v. United States, 156 F.2d 534(5th Cir.
1946). The indictment was questioned by petitioner since the beginning due to

not actually knowing what he had to defend to. Then the
8

counsel never helped petitioner understand-.-.what petitioner was
actually beinq accused of. There was two theories at trial. One was
possession with intent to distribute and then aiding and abetting.

<

"It is well settled that a defendant enjoys a Fifth Amendment right
to be tried on felony charges returned by a grand jury indictment and
that only the grand jury may broaden the charges in the indictment
once it has been returned." United States v. Sanders/ 668 F.3d 1298/
1309 (11th Cir. 2012)(per curiam). A district court may not broaden
the charges by constructive amendment. Id^. "in evaluating whether the
indictment was constructively amended/ we review, the district court's
jury instructions . • • in context to determine whether an expansion
of the indictment occurred either literally or in effect." United
States v. Seher, 562 F.3d 1344/ 1363(llth Cir. 2009)(internal quota­
tion marks omitted). " A jury instruction amends an indictment when
it broadens the possible bases for conviction beyond what is contai­
ned in the indictment." Id.(internal quotation marks and alterations
omitted). Under the Fifth Amendment/ a defendant has a substantial
eight to be tried only on charges presented"in the indictment ^return—
ed by the grand jury. An indictment that does not set out all of the
elements of the offense charged is defective. The Fifth
essential
Amendment made the right to indictment by grand jury mandatory m
federal prosecutions in recognition of the fact that the intervene!
on of the grand jury was a substantial safeguard against oppressive
and arbitrary proceedings. The right to have the grand jury make the
chargeon its own judgement is a substantial right which cannot be
taken away with or without court amendment. The very purpose of the
requirement that a man be indicted by grand jury

is to limit his ■

jeopardy to offenses charged by a group of his fellow citizens acti9

ng independently of either prosecuting attorney or judge. A grand
jury belongs to no branch of the institutional government, but rather serves as a kina of buffer or referee between the government and
the people. It would be inappropriate for a court to speculate as to
whether a grand jury might have returned an indictment in conformity
with the available evidence, because such an exercise would work the
harm the Grand Jury Clause is intended to prevent- a federal prosec­
ution begun by arms of the government without the consent of fellow
citizens. Fed.R-Crira.P. 7(c)(1) imposes two requirements: the state­
ment of essential

facts and the citation of a the statute. They are

separate requirements and not a restatement of one another; and it
has long been the rule in the Second Cirecuitifchat a deficiency in an
indictment's factual allegations of the elements of an offense is
not cured by the fact that the relevant count cited the statute that
the defendant is alleged to have violated. Stating.-that an act’, is in
-violafeioncoflar.cited : statutory section adds. no. factual information
as to.the act itself

It declares the legal basis for claiming that

the act is deserving of punishment, but does nothing to describe the
act; only words of the indictment give evidence of whether the grand
]ury considered and included within the offense charged the essential.;. element. Stated another way, the mere citation of a statutory
section is of scant help in deciding whether the granf jury conside­
red the esential element, if citation of the statute were a state­
ment of facts, nothing beyond a citation would be necessary. Surely
no one could assert persuasively that an indictment that merely
charged that a defendant violated a cited statute would suffice as
an indictment. Drug type and quantity are elements of the offense
under 21 U.S.C.S. §841 that must be charged in the indictment.

10

On the affidavit by the prosecutor (Mor.tv Kimball)he states that
others were involved and that they were also prosecuted in state
or federal. Now heres the thing# if others were involved# why were;
they not there as well;at' trial? At trial# even the agents stated
that there were two others involved. So why were they not presented
at trial? Petitioner was never shown that these other people were
severed from petitioners trial. A severance should be granted "onlyif there is a serious risk that a joint trial would comprimise a
specific trial right of one of the defendants, or prevent the jury
from making a reliable judgement about guilt or innocence." Zafijro
v. United_States# 506 U^S. 534, 539, 113 S.Ct. 933, 122 L.Edc 2d
317(1993). Now if these other people involved were there at trial,
there is a possability that the facts of the case would have acquited
petitioner of what the government was charging him with. Is it right
for a citizen to be tried when all or the people involve© are noi.
there to testify about- what happened or for the jury to hear there
version of the events that happened on the day in question? The
petitioner requested that his counsel have these persons at trial
and when trial day came, they were no where to be found. So in this
case petitioner was prejudiced by the courts when these other people
that the agents mentioned, were not there to conrirm or deny there
involvment. Petitioner knows that these other people would have sta­
ted that it was never a controlled substance at alx. In the indictm­
ent, it states rnethamphetamine. It does not state actual methamphetmine. At trial, it was never stated how many grams were actual metharophefcaroine. If counsel would have requested an xrioepenoent tesu done
it would have shown that it was never a substance at all much less
99% pure rnethamphetamine. There is no way that rnethamphetamine is
that pure due to needing a cutting agent in order to be in rock form.
11

Drug quantity must likewise be considered an element of the offen­
se if it may trigger.a statutory minimum: because mandatory roinimums
operate in tandem with increased maximums in §841(b)(1)(A) and §841
(b)(1)(B) to create sentencing ranges that raise the limit of the
possible federal sentence, drug quantity must also be deemed an ele­
ment for all purposes relevant to the application of these increased
ranges. Citation to a statutory section is not, by itself, sufficie­
nt to cure a defective indictment that fails to allege all the elem­
ents of an offense. The simple reference to a drug—quantity—based
penalty provision — whether.located in a parenthetical following
the text or placed in the text and set off by commas — witout any
language alleging the factual predicate for application of that pen­
alty, and without any other allegations that reasonably permit the
inference that the grand jury intended to charge the defendant with
the quantity necessary for application of that penalty, is-not a suff­
icient allegation of drug quantity. The affidavit submmitted by the
prosecutor states in his own words that he never presented the case
to the grand jury. If there was no presentment of the case to the
grand jury, there is no indictment, In Henperson v. Russell, supra,
a confusion between an indictment which merely technically defective.
and one —— such as petitioners — which is a complete nullity is
presented and pointed out by Judge Oliver. In the latter case, stat­
ed in the simplest of terms, there is no "defect1' in the indictment
to waive, for there is in fact nos"indictment" to contain such a de—
feet: instead, there is merely a sheet of paper, meeting, to be sure,
the facial requisites of a valid indictment, but having in actuality
no legal effect whatsoever,,

It is clear that any criminal prosecution

brought .incident to such an "indictment" is illegal and a conviction
12

to such an "indictment"is of no binding effect/ for such an "indict­
ment" confers no subject-matter jurisdiction on the sentencing court.
State v. Hughes,_21_2 Teniu 644, 371 S.W. 2d 445(1963); Robinson v.
Cit_y of JMemphis, 197 Tenn. 598/ 27? S.W.2D 341 (1955 ) ; and cases ci­
ted in Henderson v. Russell/ supra (.Oliver ,J «, dissenting ). Rule 12(b)
(2) expressly provides that the defense of lack of jurisdiction is
not waived by failure to raise it before trial. A void indictment :
confers no subject-matter jurisdiction on the sentencing court.
Petitioner has been trying to get his case.heard by someone that is
willing to hear the injustice that has been allowed on his case, Petitioner was being threatned by the prosecutor/ that if he did not
plea guilty, that he would seek an enhancement via 851 information.
Petitioner was punished more severly due to exercising his right to
go to trial. There is proof of vindictive prosecution, not only on
the threat but also the prejudice in not presenting the case to a
grand jury. If petitioner wasrsentenced today, he would not face an
851 enhancement or career offender status. A prosecutor enjoys broad
discretion in determining whom to prosecute for what crime, and such
pre-trial charging decisions are presumed to be legitamate. BordenkIrener v. Hayes, 434 D.S. 357, 364, 98 S*Ct. 663, 54 L. Ed. 2d 604
(1978). Nonetheless, a prosecutor violates due process when he or
she penalizes an individual forrexercising a statutory or constitutionai right. See United States v. . Goodwin, 457 U.S. 368, 372, 102
S.Ct. 2485, 73 L.Ed. 2d 74(1982). Is a citizen supposed to plead guilty to something he did not do? That is what is happening in these
courts and-for the higher courts to not do anything about it is also
evidence that there is no justice in this country and the CONSTITUTION
no longer applies to the citizens of this Nation. What happens when
13

a citizen is innocent and is sentenced and convicted by the failu­
re of the trial counsel or the Court to look at the evidence-and
also the lack theroffas well? Petitioner has done 4 years going
on 5 years for a supposed act that he did not do. Where is an inn­
ocent citizen to go for help when every Court has denied him? What
relief can a Court give tooarperson that has been wrongfully accu­
sed and has lost all that time in prison away from being there for
his family? petitioner has lost so many loved ones without being
able to properly moarn or grieve. Petitioner lost his mother last
year in September and is on the verge of losing his father without
being able to at least say goodbye. What relief will the Justice
System give when petitioner finally proves his innocence and prov­
es he was wrongfully accused?
On the trial transcripts (Doc. 117 page 19 of 168 lines 20-23)
the beginning of the trial, Judge Martinez tells the jury that the
petitioner is being charged with possession of a controlled subst­
ance. Then on (Doc.117 page 20 lines 5-14) the Judge states that
the jury must find that the government has proven the following
beyond a reasonable doubt. First; that the defendant knowingly
possessed a controlled substance. Second; that the substance was
in fact, methamphetamine. Third; that the defendant possessed the
substance with the intent to distribute it. And Fourth; that the
quantity of the substance was at least five grams. This is what
the trial judge stated needed to be proven. Those were the elemen­
ts of what the jury needed to consider. Now, consider this, the
trial counsel never submitted evidence to put the evidence into!
question and for it to be considered as to the reasonable doubt.
One thing is that the evidence was never put into a heatsealed bag

u*

as it is supposed to be. How was the agent supposed to state that
what was being shown was the evidence that was acquired on that
day# when there was no identification as to who submitted the
controlled substance into evidence? Again on (Doc.117 page 129
lines 1—4) the judge states again that the petitioner was charged
with possession of a controlled substance to wit/methamphetamine.
Also/ on (Doc.117 page 136 lines 10-14) the judge tells the jury
that the petitioner is not on trial for any act/ conduct or offen­
se not alleged in the indictment. Neither are you called upon to
return a verdict as to the guilt of any other person or persons
not on trial as a defendant in this case. Then on (Doc. 117 page
137 lines 7-8) the judge alters the indictment stating the indict­
ment charges the defendant with 841(a)(1) and 841(b)(1)(d). That
is an amended indictment that was not presented to the grand jury
first. Then on (Doc.117 page 139 lines 7-20) the judge changes the
jury instructions again when he states for the jury to find the
petitioner guilty of aiding and abetting. That is an amended indi­
ctment that was not shown to the grand jury. Petitioner can show
where he was asking about the grand jury on his case from the aff­
idavit of appointed counsel/ where she states that there were no
grand jury transcripts to review or examine (Doc .,166-2 page 4 Sf
5). She states that the grand jury testimony was not recorded. /:■ ■*
here is another showing of ineffective assistance of counsel on ‘
(Doc. 166-3 page 4 of 11) where the entry of 04/01/17/ states in
her own words that "The substance charged in the indictment is
pure. There is no evidence of pure. Guidelines for mixture. They
have chaerged the wrong offense and there is no mandatory minimum.
30 grams does not adduup to 5 grams of pure. Statute is in the dis15

junctive." That alone will show that she never questioned the leg­
ality of the indictment or why the testimony was not recorded.
Even when this was known to the appellant counsel, he did not
even submit it the court of Appeals to show how prior counsel was
ineffective. In the affidavit by appellant counsel, he states that
trial counsel failed to submit pre-trial motions on behalf of the
petitioner. Every motion submitted to the court6s and to the gove­
rnment for the discovery of petitioners case has been denied. Why
would a Court not allow any discovery in a case?
HOW _THE WRIT WILL BE IN THE AID OF THE COURTS_APPELLATE

"jurisdiction

............

This Writ will aid the Courts Appellate 4urisdiction in helpi­
ng the District Court and Appellate Court to understand the nature
in where a citizenaof the United States, is to have rights as well
as every other citizen.alt will aid the District Court and Appell­
ate Court to understand, that if there is no indictment, the con­
viction is void on its face. Also, that the Court should not abuse
its power to arrest a citizen upon false'-statements and an affida­
vit by the applicating officer. It will aid in the way the trial
is to be conducted and that a citizen has the right to know what
allegation he is to defend to. It will also answer the question as
to why a citizen can not gain relief from the courts denying disc­
overy.
WHAT EXCEPTIONAL CIRCUMSTANCES WARRANT THE EXERCISE OF THE

"courts

discre'tTonary powers

”

" "

..........

The exceptional circumstance is that petitioner can show that
he is being hindered by the justice system and has been prejudiced
by the lower courts. Petitioner may not be the only one that has
been harmed by the injustice in this District. Petitioner has sta16

ted that he can prove that he is innocent. There is a public int­
erest in this case/ due to the fact that if petitioner does end
up not gainingathe relief requested and shows that upon his rele­
ase he was telling the truth ..all along/ it will prove and show 1
that there is no .Justice in this Country. Itwill also prove that
any American citizen can be falsely accused and convicted without
being able to be heard or redress the Courts. This Honorable Cou­
rt has all authority to request for the District Court and the
Court of Appeals to submitethe records on this case and also the
grand jury transcripts/ to see if in fact the District Court had
subject matter jurisdiction. Also/ if the trial was even fair wh­
en the petitioner was denied every motion for discovery and to r
show that the appointed counsel was ineffective, petitioner is l
losing time to help his dieirag father keep the house he worked .1
his whole life for. If this Honorable Court does not hear this
case/ petitioner will lose everything his father and mother work­
ed all there lives for. If given the chance to be released to wo­
rk and help with the bills/ petitioner may be ablfertousave the 1
litt& that his family has.
WHY ADEQUATE, RELIEF CANNOT_ BE_ OBTAINED IN _AMY_ OTHER FORM OR
“FROM ' A~NY“oTHER COURT
Adequate releif cannot be found in any other form or any other Court

due to the amount of time it takes the courts to respo-

nd or make a decision. How long does an innocent citizen have to
be detained illegally? Petitioner has tried to^be heard and to be
able to gain the evidence he has to prove his case. The Courts
always deny him on unfounded grounds. Petitioner has even been
denied ;by this Honorable Court. Petitioner now prays that his ar­
gument is better presented for thisHH©®ff©fe&le' Court to be able to
give.petitioner the relief he needs due to this injustice.
17

CONCLUSION
Wherefore premisses considered/ petitioner requests that this Honorcourt give petitioner the' relief-requested and vacate.and remand.
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Jeremiah Ibarra
Reg#&5024-280
Date: 4-22 -2021

18

